No. 20-1503

3fn WJ>t

Supreme Court of tlje ®ntteb State*

U.S., ex rel., Robert C. Laity,
Petitioner,
v.
Purported Vice President Kamala Devi Harris,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuit

PETITION FOR REHEARING

Robert C. Laity, Pro Se
43 Mosher Drive
Tonawanda, New York 14150
(716) 260-1392
robertlaity@roadrunner. com

1
PETITION FOR REHEARING
The Petitioner hereby Petitions this court for (1)
An Order vacating its denial of a Writ of Certiorari
entered on June 1, 2021. (2) A rehearing of the June
1, 2021 denial of a writ of certiorari in the abovecaptioned matter. (3) Granting of a Writ of Certiorari
to the U.S. Court of Appeals for the District of Colum­
bia. (4) Issuance of a Writ of Quo Warranto pursuant
to Chapter 35 of the D.C. Code against the Respondent
Purported Vice-President Kamala Devi Harris.
1.

Kamala Devi Harris is NOT the bona-fide
Vice-President of the United States. She
is not an Article II, Sec. 1, Clause 5 “Nat­
ural Born Citizen”. On the basis of her
birth circumstances to two non-citizen
permanent residents, one of which was a
diplomat, there is evidence that she may
not even be lawfully naturalized. The is­
suance of a Writ of Quo Warranto is nec­
essary and is the appropriate legal action
to address this issue and to remedy it.

2.

This court has long established that a
“Natural Born Citizen” is one born in the
United States to parents who are both
U.S. Citizens themselves.

3.

The respondent, purported Vice-President
Kamala Devi Harris is required by law to
meet all legal criteria mandated by Arti­
cle II, Sec. 1, Clause 5 of the U.S. Consti­
tution. She does not meet all the criteria
required by law.

2

4.

The U.S. District Court for the District of
D.C. is judicially empowered, as a matter
of law, to address and remedy “Infor­
mation^) in the form of Quo Warranto
at Common Law”. It is in the interest of
the government to weed out frauds and
usurpers from the ranks of its public offi­
cials and if found not eligible to hold said
office, to defenestrate such usurper from
said office.

5.

The Constitutional requirement that a
President and Vice-President be “Natural
Born Citizen(s)” cannot be abrogated by
“evading” the issue. It is the sworn duty
of all federal public officers and employ­
ees to obey the Constitution of the
United States and to defend against all
encroachments of said Constitution that
is brought to their attention. The pur­
poseful “Evading” of addressing said en­
croachments constitutes Misprision,
Malfeasance in Office and Non-feasance.

6.

The Petitioner was wrongfully denied
“standing” in this matter, upon the proper
motion for leave to proceed, after every
U.S. Attorney since Bill Barr failed to pro­
ceed on usurpation by the Respondent.
The real question is why those Public Of­
ficials who are charged with enforcing the
Constitution have failed to do so? Some
matters are so grave to the very existence
of the Republic that they must be ad­
dressed. This is one of them.

3

7.

This case has been reviewed by at least
(24) Judges and/or Justices in this court
and the DC Courts below. That a majority
of those Judges saw nothing of a threat­
ening nature, intrinsic with the usurpa­
tion of our highest offices, is quite
disturbing and unconscionable. That not
one of the courts felt compelled to exercise
the Judiciary’s lawful authority given to
the D.C. Courts, to defenestrate a usurper
and fraud, on a Writ of Quo Warranto, is
a travesty.

8.

The Petitioner, as outlined in his submis­
sions below has met his burden of proof
that he has standing. This on the basis of
having established Injury having nexus
to the illegal act(s) of the respondent and
having identified a remedy that this court
is empowered by law to grant.

9.

Remedy cannot be had in any other court.
The DC District court has the sole author­
ity to address and remedy Information(s)
- in the form of Quo Warranto at common
law concerning public officials holding
offices, in DC, under the United States.
Ineligibility to hold a public office in DC,
such as President of the United States
and Vice-President of the United States,
is not a political question that can only be
answered by Congress. The DC Courts
have been given the legal authority to
adjudicate Quo Warranto issues of Public
Officials who hold office in DC, pursuant
to Chapter 35 of the D.C. Code.

4
10. It is a moral imperative that this court
dig deep into its repertoire ofjudicial au­
thority and exercise that authority in or­
der to save this nation from the clear and
present danger that presents itself by al­
lowing frauds and usurpers to continue,
unabated and unfettered in their infiltra­
tion and undermining of our nation’s
highest offices.

CONCLUSION
For the foregoing reasons, this Petition for Rehear­
ing should be granted.
Respectfully submitted,
Robert C. Laity, Pro Se
43 Mosher Drive
Tonawanda, New York
14150
(716) 260-1392
robertlaity@roadrunner. com

5
CERTIFICATION OF PETITIONER, PRO SE
I certify that this Petition for Rehearing is re­
stricted to the grounds specified in Rule 44.2 and that
it is presented in good faith and not for delay.

Robert C. Laity, Pro Se
Petitioner
43 Mosher Drive
Tonawanda, New York 14150
(716) 260-1392
Email: robertlaity@roadrunner.com

